BUREAU OF INDUSTRY
AND SECURITY
BIS’ Implementation of
Export Control Reform
Requires Several
Improvements to Address
Challenges

FINAL REPORT NO. OIG-14-028-A
SEPTEMBER 4, 2014



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation




FOR PUBLIC RELEASE
                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                         Office of Inspector General
                                                         Washington, O.C. 20230




September 4, 2014

MEMORANDUM FOR:              Eric L. Hirschhorn
                             Under Secretary of Industry and Security


FROM: 	                      Carol N. Rice
                             Assistant Inspector General for Economic and
                             Statistical Program Assessment


SUBJECT: 	                   BIS' Implementation of Export Control Reform Requires Several
                             Improvements to Address Challenges-Final Report No.
                             OIG-14-028-A

Attached is the final report on the results of our audit of the Bureau of Industry and Security
(BIS) to (I) review the adequacy of BIS program plans and budget requests to address the
increased workloads for licensing, outreach, and enforcement activities in FY 2014 through FY
2016 and (2) evaluate existing BIS licensing, outreach, and enforcement activities and identify
any areas for increased efficiencies.

In the area of export licensing, we found that BIS has adequate resources at this time to handle
the gradually increasing licensing workload as a resu lt of Export Control Reform Initiative
(ECR) for new munitions and satellite items, but operational improvements are needed .
Because we were unable to verify BIS' methodology for estimating initial staffing requirements,
it is unclear whether BIS will require more or less staff once the transition of items from the
United States Munitions List to the Commerce Control List is completed. We found
weaknesses in the way BIS tracks the receipt and delivery of license determination requests
from other U.S. government export enforcement agencies. Finally, we note that the migration
to a new IT system to process licenses requires continued management attention and oversight.

In the area of outreach, BIS conducted a significant amount of ECR outreach-conducting
events using a variety of media and targeting munitions exporters who would be affected by
these changes.

In the area of export enforcement, we found that BIS' plans for increasing its enforcement
capabilities and resources are reasonable and in line with increased performance goals.
However, we found end-use check training for U.S. and Foreign Commercial Service officers
could be enhanced.

In response to our draft report, the bureau agreed with all four recommendations. Where
appropriate, we modified this final report based on the technical comments we received from
your agency. Your formal response is included as appendix E. The final report will be posted on
the OIG's website pursuant to section 8M of the Inspector General Act of 1978, as amended.
In accordance with Departmental Administrative Order 213-5, please submit to us within 60
calendar days of the date of this memorandum an action plan that responds to the
recommendations in this report.
We thank BIS personnel for the assistance and courtesies extended to my staff during this
audit. If you have any further questions or comments about the report, please contact Eleazar
Velazquez, Supervisory Program Analyst and audit manager, at (202) 482-0744.
Attachment

cc:	   Daniel O. Hill, Deputy Under Secretary for Industry and Security
       Kevin J. Wolf, Assistant Secretary for Export Administration
       David W. Mills, Assistant Secretary for Export Enforcement
       Kathryn Chantry, Chief Financial Officer and Director of Administration
       John T. Masterson, Chief Counsel for Industry and Security
       Steve Emme, Senior Advisor to the Assistant Secretary for Export Administration
       Mark Crace, Audit Liaison




                                               2
                                              Report In Brief                                      S E P T E M BE R 4 , 2 0 1 4



Background
                                        BUREAU OF INDUSTRY AND SECURITY
The U.S. export control system is
distributed among several differ-       BIS’ Implementation of Export Control Reform, Requires Several
ent licensing and enforcement           Improvements to Address Challenges
agencies. The two primary export
licensing agencies are the Depart-      OIG-14-028-A
ment of Commerce’s Bureau of
Industry and Security (BIS), which      WHAT WE FOUND
historically has licensed exports
                                        Our audit found that
of dual-use items, and the Depart-
ment of State, which has histori-       • 	BIS currently has adequate licensing resources to handle the gradually increasing licensing
cally licensed munitions, satellites,      workload for new munitions items, including satellite items, that is coming as a result of
and spacecraft items.                      ECR. Because we were unable to verify BIS’ initial staffing requirements, however, it
                                           is unclear whether BIS will require more or less staff once the transition of items
The Export Control Reform
(ECR) Initiative, launched in April        from the U.S. Munitions List (USML, administered by the Department of State) to
2010, is a three-phase effort to           the Commerce Control List (CCL, administered by BIS) is completed.
streamline the nation’s export          • 	Average license determination processing times could not be fully calculated due to data
control system by ultimately con-          errors. We found weaknesses in the way BIS tracks the receipt and delivery of license
solidating the export efforts of           determination requests from other U.S. government export enforcement agencies.
multiple federal agencies. It aims         According to the Department of Homeland Security, license determinations referred
to create a single licensing agency,       to BIS in calendar year 2013 had longer average processing times than those sent to
a single list of controlled items, a       either the Departments of State or Treasury. Our examination of spreadsheets
single information technology (IT)         found that, in FY 2013, 218 cases (or more than 10 percent of all cases) were missing
platform, and a single export en-          data; 28 cases listed completion dates that occurred before the date of receipt
forcement coordination agency.
                                        • 	Delays in migrating to a new IT system, USXPORTS, now in its third year, may cost BIS
                                           $1.3 million per quarter in FY 2015 to continue operating its current antiquated system.
Why We Did This Review
                                           The migration to USXPORTS, the IT system used by the Departments of Defense
We conducted this audit in re-             and State to process export license applications, requires continued management
sponse to a Congressional re-              attention and oversight.
quest and in conjunction with the
Office of Inspector General’s Top       • 	BIS’ plans for increasing enforcement capabilities and resources are reasonable, but end-use
Management Challenges report for           check training for commercial officers from the International Trade Administration’s U.S.
fiscal year (FY) 2013. We focused          and Foreign Commercial Service (USFCS) could be enhanced. BIS’ plans for increasing its
our analysis on areas of BIS most          enforcement capabilities and resources are reasonable and in line with increased
affected by ECR, namely its licens-        performance goals, but training of USFCS commercial officers on how to conduct
ing divisions, outreach office, and        end-use checks could be enhanced. Providing them with more robust, up-to-date
enforcement offices (excluding             online training materials would assist them in performing these enforcement
antiboycott compliance).                   activities.
Our objectives were to (1) re-          WHAT WE RECOMMEND
view the adequacy of BIS’ pro-
gram plans and budget requests          We recommend that the Under Secretary for Industry and Security take the following
to address the increased work-          actions:
loads for licensing, outreach, and      1.	 Verify the appropriateness of staffing levels after the transfer of all USML items
enforcement activities in FY 2014            to the CCL is complete.
through FY 2016 and (2) evaluate
                                        2.	 Improve the tracking of license determinations to ensure they are processed
existing BIS licensing, outreach,
                                             within established timeframes.
and enforcement activities and
identify any areas for increased        3.	 Develop a contingency plan for completing the migration to USXPORTS that
efficiencies.                                includes any additional incurred costs and how BIS will absorb those costs.
                                        4.	 Enhance end-use check training for USFCS officers.
   U.S. DEPARTMENT OF COMMERCE                                                                                         OFFICE OF INSPECTOR GENERAL



Contents

Introduction .......................................................................................................................................................1

Objectives, Findings, and Recommendations .............................................................................................6

   I. BIS Appears to Have Sufficient Resources to Process New Munitions Licenses, but 

      Operational Improvements Are Needed ...........................................................................................6

       A. Initial Staffing Requirements of 24 Employees for the Munitions Control Division Could 

          Not Be Supported...............................................................................................................................6

       B. 	Average License Determination Processing Times Could Not Be Fully Calculated Due

          to Data Errors .....................................................................................................................................8

       C. Delays in Migrating to USXPORTS, Now into Its Third Year, May Cost BIS $1.3 Million 

          per Quarter in FY 2015 to Continue Operating Its Current Antiquated Licensing

          System....................................................................................................................................................9

   II. BIS’ Plans for Increasing Enforcement Capabilities and Resources Are Reasonable, but 

       End-Use Check Training for U.S. and Foreign Commercial Service Officers Could Be 

       Enhanced ................................................................................................................................................. 11

   Recommendations..................................................................................................................................... 12

Summary of Agency Response and OIG Comments............................................................................. 13

Appendix A: Objectives, Scope, and Methodology................................................................................ 14

Appendix B: ECR Outreach Events in Relation to USML Exporters, FY 2013 ............................... 16

Appendix C: BIS Licensing and Enforcement Resources for Satellite Items .................................... 17

Appendix D: List of Acronyms ................................................................................................................... 18

Appendix E: Agency Response ................................................................................................................... 19





                                                                                                                       COVER: Detail of fisheries pediment,
                                                                                                              U.S. Department of Commerce headquarters,

                                                                                                                      by sculptor James Earle Fraser, 1934





                                                                                                                           FINAL REPORT NO. OIG-14-028-A
U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL



Introduction

The U.S. export control system is distributed among several different licensing and enforcement
agencies. The two primary export licensing agencies are the Department of Commerce, which
has historically licensed exports of dual-use goods and technologies—that is, items with both
civilian and military uses—and the Department of State, which has historically licensed
munitions, satellites, and spacecraft items (see table 1). Additionally, the Department of the
Treasury administers restrictions on exports based on U.S. sanctions. Other executive
departments and agencies, such as the Department of Defense, recommend approval or denial
of export license applications referred by State or Commerce. The Departments of Commerce,
State, Homeland Security, and Justice enforce export controls.

                     Table 1. Primary Export Control Regulatory Agencies

                                                                       Department of
                                     Department of State
                                                                        Commerce
                                                                   Export Administration Act
       Legal Authority              Arms Export Control Act       and International Emergency
                                                                     Economic Powers Act
                                  International Traffic in Arms      Export Administration
       Regulations
                                           Regulations                   Regulations
       Control List               United States Munitions List      Commerce Control List
     Source: Congressional Research Service

The Export Control Reform (ECR) Initiative, launched in April 2010, is a three-phase effort to
streamline the nation’s export control system by ultimately consolidating the export efforts of
multiple federal agencies. It aims to create a single licensing agency, a single list of controlled
items, a single information technology (IT) platform, and a single export enforcement
coordination agency.

Within the Department of Commerce, the Bureau of Industry and Security (BIS) administers
and enforces the Export Administration Regulations (EAR), which apply to dual-use and other
items. These regulations serve to support and advance the national security, foreign policy,
nonproliferation, and short supply interests of the United States. BIS’ two primary functions,
licensing and enforcement, are handled by Export Administration and Export Enforcement,
respectively (see figure 1).




FINAL REPORT NO. OIG-14-028-A                                                                         1
    U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL


       Figure 1. Bureau of Industry and Security’s Primary Operating Units and

                           Major New ECR Responsibilitiesa


                                       Export                      Export
                                    Administration              Enforcement



                Office of National
                                               Office of Exporter             Office of Export
             Security and Technology
                                                    Services                   Enforcement
                Transfer Controls
                (new satellite licenses)

                     Office of
                                              Office of Technology          Office of Enforcement
               Nonproliferation and
                                                   Evaluation                      Analysis
                Treaty Compliance
                                                                            (Information Triage Unit)


                Office of Strategic                                         Office of Antiboycott
             Industries and Economic
                     Security                                                    Compliance
                (new munitions licenses)


Source: Department Organization Order 50-1
a
  New responsibilities are in parentheses.

Export Administration, with a staff of 217 and budget authority of nearly $58 million in FY
2013, comprises five offices, two of which—the Office of National Security and Technology
Transfer Controls and the Office of Nonproliferation and Treaty Compliance—processed
24,782 dual-use export license applications in FY 2013.1 In FY 2012 the Munitions Control
Division (MCD) was created within the Office of Strategic Industries and Economic Security to
process new munitions license applications. Export Administration’s licensing offices work with
three other federal agencies to review dual-use license applications: the State Department’s
Bureau of International Security and Nonproliferation, the Defense Department’s Defense
Technology Security Administration (hereafter “Defense Department”), and the Energy
Department’s National Nuclear Security Administration.

Unique among federal export control agencies, BIS has a program office dedicated to education
and outreach, known as the Office of Exporter Services (OExS). In preparation for ECR,
beginning in FY 2012 OExS significantly increased its outreach, education, and training activities
for exporters and federal agency partners (see table 2).2 According to OExS, BIS’ outreach
strategy for ECR is to first engage with industry groups, such as trade associations, then with
large firms and related suppliers, and finally with small and medium-sized enterprises. To
leverage its resources, OExS delivers the majority of outreach activities in partnership with
1
  The Office of National Security and Technology Transfer Controls and the Office of Nonproliferation and Treaty 

Compliance each have licensing divisions that process applications.

2
  These activities include briefings, broadcasts, conferences, discussions, exhibitions, meetings, receptions, 

seminars, teleconferences, trade shows, videoconferences, webinars, and workshops.



2                                                                                    FINAL REPORT NO. OIG-14-028-A
U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL


other Commerce bureaus and federal agencies, industry trade associations, and nonprofit
institutions such as universities.

             Table 2. Outreach Activities by BIS’ Office of Exporter Services,
                                   FY 2011–FY 2013

                                        FY 2011                FY 2012                FY 2013

            Activities                     105                     86                    198
            Locations                      —a                      33                     72
            Participantsb                 3,500                  6,873                  16,623
          Source: BIS
          a
            Data by location for FY 2011 were not available.
          b
            “Participants” are defined as attendees at physical gatherings, such as conferences, seminars, and
          workshops, and at least one listener per line during teleconferences. In many instances involving
          teleconferences, there may be more than one listener per line, which may understate total participation
          for that teleconference.

OIG analysis found that in FY 2013 OExS conducted ECR outreach activities at locations in or
near those states which generated the most license applications to the State Department’s
Directorate of Defense Trade Controls (hereafter “State Department”; see appendix B for a
map of OExS outreach locations in FY 2013). The goal of these outreach activities was to
ensure that exporters of items currently on the U.S. Munitions List (USML) that are due to
move to the Commerce Control List (CCL, which is administered by BIS) are aware of the
proposed licensing changes under ECR.3

Export Enforcement, which in FY 2013 had a staff of 171 and budget authority of more than
$37 million, comprises three units: (1) the Office of Export Enforcement (OEE), which
investigates export violations, (2) the Office of Enforcement Analysis (OEA), which provides
analytical support to OEE and Export Administration, and (3) the Office of Antiboycott
Compliance, which enforces the antiboycott provisions of the Export Administration
Regulations.

Export Enforcement’s mission is enforcing dual-use and other export controls subject to the
EAR, in contrast to federal counterparts that have multiple enforcement missions of which
export controls is one. Among Export Enforcement’s activities, OEA analysts in the Information
Triage Unit disseminate relevant all-source information (including intelligence information) to
Export Administration and other federal export licensing agencies to assist in processing license
applications. In addition to investigating possible violations, OEE special agents conduct
preventive outreach to educate exporters on current dual-use export control regulations. They
also travel overseas to conduct end-use checks to ensure that exports will be (and/or are
being) used in accordance with their license conditions. Finally, as part of its authority Export
Enforcement can pursue both criminal and administrative penalties against export violators as

3
 See The White House, Office of the Press Secretary, April 20, 2010, “Fact Sheet on the President’s Export
Control Reform Initiative,” [online], www.whitehouse.gov/the-press-office/fact-sheet-presidents-export-control-
reform-initiative (accessed March 21, 2014).


FINAL REPORT NO. OIG-14-028-A                                                                                     3
    U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL


means to sanction them and to deter future violations. In FY 2013, nearly $2.7 million in
criminal fines and more than $6.5 million in civil penalties were imposed as a result of these
activities.

Using existing resources, the Departments of Commerce, Defense, and State have already
achieved some successes by collaborating to make a number of administrative and regulatory
changes. Accomplishments to date include:

     	 revising the two export control lists—the State Department’s USML and the
        Commerce Department’s CCL—through the federal rulemaking process, so that less-
        sensitive munitions items are moved to the CCL,4

     	 establishing the Export Enforcement Coordination Center with other agencies, a joint
        enforcement coordination center to share investigative information, and

     	 migrating the State Department onto USXPORTS, the Defense Department’s export
        license processing system.

Under changes called for by ECR, BIS’ licensing workload would increase as a result of items
moving from the USML to the CCL. According to data provided by BIS, jurisdiction for items
that generated approximately 46,000 munitions and satellite license applications listed on the
USML prior to October 15, 2013 (and therefore reviewed by the State Department) would be
transferred to the CCL in several stages starting on that date and thus become the
responsibility of BIS. Of them, nearly 16,000 would be eligible for license exceptions5 and the
remaining 30,000 would require export licenses. As shown in figure 2, jurisdiction of items that
were estimated to generate over 17,000 State Department license applications annually had
already been transferred to BIS as of January 6, 2014, under Stages 1 and 2. The remaining
items that were estimated to generate 29,000 applications annually are scheduled to transfer to
BIS in late FY 2014 and beyond.




4
  Section 38(f) of the Arms Export Control Act (Pub. L. No. 90-629, codified at 22 U.S.C. § 2778(f)) requires the
President to “periodically review the items on the United States Munitions List to determine what items, if any, no
longer warrant export controls under this section.”
5
  A license exception is an authorization which allows the exporter to export or re-export, under conditions stated
in the exception, items that would otherwise require a license, based on the reason for control and the country of
destination (see 15 C.F.R. part 740 “License Exceptions”).


4                                                                                     FINAL REPORT NO. OIG-14-028-A
U.S. DEPARTMENT OF COMMERCE                                                                OFFICE OF INSPECTOR GENERAL


          Figure 2. Timeline for Transfer of USML License Applications to BIS

              50,000

              40,000

              30,000

              20,000

              10,000

                   0


                                                    Jan-14



                                                                   Apr-14




                                                                                                TBD
                       Jul-13



                                       Oct-13




                                                                                 Jul-14
                                Stage 1 (effective Oct. 15, 2013)           Stage 2 (effective Jan. 6, 2014)
                                Stage 3 (effective July 1, 2014)            Future stages (To be determined)


            Source: BIS and State Department licensing data


ECR also involves export control changes for satellites and related components. In 1998,
Congress passed legislation transferring jurisdiction over these items from the Commerce
Department to the State Department.6 As a result of this 1998 law, satellites were the only
export items subject to the USML that would require Congressional, in addition to executive,
action to be moved to the CCL as part of the ECR. In January 2013, in the National Defense
Authorization Act of FY 2013, Congress restored the President’s authority over export
controls for satellites and related components.7 An interim final rule for satellite items with two
effective dates was published on May 13, 2014, returning certain satellites and related items to
Commerce Department jurisdiction. This will result in new licensing and enforcement
responsibilities for BIS. (For additional information on licensing and enforcement for satellite
items, see appendix C.)




6
  Strom Thurmond National Defense Authorization Act for Fiscal Year 1999, Pub. L. No. 105-261, § 1513, 112

Stat. 1920, 2174-75 (1998).

7
  Pub. L. No. 112-239, § 1261, 126 Stat. 1632, 2018-19 (2013).



FINAL REPORT NO. OIG-14-028-A                                                                                       5
    U.S. DEPARTMENT OF COMMERCE                                                OFFICE OF INSPECTOR GENERAL



Objectives, Findings, and Recommendations

We conducted this audit in response to a Congressional request and in conjunction with the
OIG’s Top Management Challenges report for FY 2013. Our objectives were to (1) review the
adequacy of BIS’ program plans and budget requests to address the increased workloads for
licensing, outreach, and enforcement activities in FY 2014 through FY 2016 and (2) evaluate
existing BIS licensing, outreach, and enforcement activities and identify any areas for increased
efficiencies. We focused our analysis on areas of BIS most affected by ECR, namely its licensing
divisions, outreach office, and enforcement offices (excluding antiboycott compliance).

We found that BIS currently has adequate licensing resources to handle the gradually increasing
licensing workload for new munitions items, including satellite items, that is coming as a result
of ECR. However, because we were unable to verify BIS’ initial staffing requirements, it is
unclear whether BIS will require more or less staff once the transition of items from the USML
to the CCL is completed. We found weaknesses in the way BIS tracks the receipt and delivery
of license determination requests from other U.S. government export enforcement agencies.
Finally, the migration to a new IT system to process export licenses requires continued
management attention and oversight. In the area of export enforcement, we found that BIS’
plans for increasing its enforcement capabilities and resources are reasonable and in line with
increased performance goals. However, we found that end-use check training for commercial
officers could be enhanced.8 Our report offers four recommendations to resolve these issues
and improve BIS operations.

I. BIS Appears to Have Sufficient Resources to Process New Munitions Licenses,
but Operational Improvements Are Needed

BIS appears to have adequate resources to handle the gradually increasing licensing workload as
a result of ECR for new munitions items, including satellite items. BIS’ licensing workload for
munitions and satellite items is expected to increase by 29,000 and 1,500 applications,
respectively. There are weaknesses in the way BIS tracks the receipt and delivery of license
determination requests from other U.S. government export enforcement agencies. Finally, the
migration to a new IT system to process licenses requires continued management attention and
oversight.

A. Initial Staffing Requirements of 24 Employees for the Munitions Control Division Could Not Be
Supported

Based on expected ECR licensing authority changes, BIS reviewed the State Department’s
licensing workload and concluded that approximately 43,000 USML license applications would
become part of the new “600 series” of items on the CCL,9 29,000 of which would not be
eligible for BIS license exceptions, thus requiring license applications. BIS’ analysis, working with
8
  Commercial officers are employed by the International Trade Administration’s U.S. and Foreign Commercial
Service. Commercial officers stationed overseas perform end-use checks on behalf of BIS.

9
  The term “600 series” refers to CCL items that are controlled as former USML items and have the number “6”
	
as the second digit of their Export Control Classification Numbers (for example, 0B606, 8B609, 9A610).



6                                                                                 FINAL REPORT NO. OIG-14-028-A
U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL


the State Department, was iterative: BIS developed preliminary estimates in 2011, revised them
using license application data provided in 2012 by the State Department, and adjusted them to
account for potential use of the Strategic Trade Authorization (STA) license exception. The
STA license exception allows, under certain conditions, many items subject to the EAR to be
shipped without a license to 36 countries.10

To accommodate the additional workload, BIS created MCD and, in an attempt to improve
license processing, adopted best practices from the Defense and State Departments. For
example, borrowing a concept from the Department of Defense, BIS established
multidisciplinary groups of license examiners, called Tiger Teams. These teams conduct an initial
review of each license application to ensure that it is appropriately vetted, as a way to shorten
the initial license application review period. Although BIS developed adequate policies for the
new division, we could not determine whether its staffing levels were appropriate.

In FY 2012, BIS initiated recruitment to hire 24 new employees (including a director) at a cost
of $2.3 million to handle the incoming munitions workload. To arrive at that number, BIS
managers stated that, using data provided by the State Department, they divided the number of
estimated new munitions license applications (28,000)11 by 1,200 (the average number of
licenses processed annually by a State Department licensing officer). We were unable to verify
the estimates because BIS could not provide OIG with supporting documentation, stating that
the senior official at State’s Directorate of Defense Trade Controls responsible for providing
the data and conducting the analysis had retired. Thus, to verify the numbers, we requested
licensing data directly from the State Department. Based upon the data we received from the
State Department, each of its licensing officers reviews nearly 2,000 license applications annually
(see figure 3); had BIS managers used those values, they would require 15, not 24, licensing

              Figure 3. Application Processing Rates of Licensing Officers
                           at the State Department and BIS
            2,000                                                                              60
                                      43
            1,500                                                                              45

            1,000                                                         24                   30

             500                                                                               15

                0                                                                              0
                                State (FY 2010)	                   MCD estimate
                                                           (based on State data, FY 2010)

                          License applications processed annually per licensing officer
                          Number of licensing officers

          Source: BIS and State Department data

10
   For details regarding STA, see “License Exception Strategic Trade Authorization (STA),” 15 C.F.R. part 740.20

and “Supplement No. 1 to Part 740—Country Groups,” 15 C.F.R. part 740, Supp. 1. 

11
   This figure was a preliminary estimate from FY 2011 that was later revised in FY 2012 to 29,000.



FINAL REPORT NO. OIG-14-028-A                                                                                       7
    U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL


officers to process munitions license applications. When asked to explain the difference, BIS
managers were unable to provide documentation to support the analysis, whether conducted
by the State Department, BIS, or both.

In addition to reviewing applications, BIS licensing officers perform duties that their State
Department counterparts do not. Licensing officers who work for BIS’ other licensing
divisions—whose work is roughly comparable to that of the licensing officers in the Munitions
Control Division—each review approximately 500 license applications annually. Additionally,
various other factors—such as the rate at which companies use STA exceptions for eligible
exports that are subject to the EAR and potential increases in export license applications—
could result in substantial deviations from BIS’ licensing estimates. USML items will transfer
gradually to BIS’ authority through FY 2015, giving BIS sufficient time to review and, if
necessary, revise its staffing levels. BIS management stated that it plans to monitor staff
workloads throughout the transition period in order to ensure that its licensing officers will be
able to meet the demands of any increase in the number of license applications. Although we
did not verify this during our audit, we will look for BIS’ related plans in its post-audit
resolution proposal.

BIS began hiring licensing officers for MCD in January 2012, but the first wave of USML items
were not transferred to BIS’ authority until October 15, 2013—nearly two years later. During
this time, munitions licensing officers were trained and assisted other BIS licensing divisions
with application reviews (completing 649 reviews from the establishment of the MCD to
September 11, 2013) and performing outreach. After October 15, 2013, munitions licensing
officers began working on the new munitions items that were transferred to the CCL. For
example, between October 15, 2013, and November 15, 2013 (the first full month after the
transition), MCD licensing officers processed 159 new 600-series applications.

B. Average License Determination Processing
Times Could Not Be Fully Calculated Due to             Figure 4. Average License
Data Errors                                       Determination Processing Times at
                                                  BIS, State, and Treasury in CY 2013
If, while enforcing export control                              (in days)
regulations, a Department of Homeland
                                                 40
Security Customs and Border Protection                     33
officer (hereafter, “Department of Homeland
Security”) at a U.S. port of entry is unsure     30
whether an export requires a license or                                   23            21.5
license exception, he or she requests a          20
license determination from the relevant
regulatory agency—typically BIS, the State
                                                 10
Department, or the Department of the
Treasury’s Office of Foreign Assets Control
(hereafter, “Treasury Department”). Until         0
the officer receives the applicable license                BIS           State        Treasury
determination confirming a shipment’s
compliance with export regulations, the          Source: Department of Homeland Security data



8                                                                         FINAL REPORT NO. OIG-14-028-A
U.S. DEPARTMENT OF COMMERCE                                                  OFFICE OF INSPECTOR GENERAL


goods are detained at the port at the exporter’s expense. According to the Department of
Homeland Security, license determinations referred to BIS in calendar year 2013 had longer
average processing times than those sent to either the State or Treasury Departments (see
figure 4).12 (For this audit, we did not assess the accuracy of the data on processing times
reported by the Department of Homeland Security.)

OEE receives license determination requests from the Department of Homeland Security,
records the date of receipt on a spreadsheet, and then sends the referral to the license officers
within Export Administration’s licensing divisions. Once a BIS license determination is
completed, Export Administration records the date of completion on a separate spreadsheet
and sends the determination to the Department of Homeland Security. We merged the two
spreadsheets to compare BIS’ licensing processing times with the license determination
processing times provided by the Department of Homeland Security, but found errors in BIS’
data. In FY 2013, 218 cases, or more than 10 percent of all cases, were missing data from either
OEE’s spreadsheet (date received) or Export Administration’s spreadsheet (date completed).
Additionally, 28 cases listed completion dates that occurred before the date of receipt. Given
these data errors, we did not calculate elapsed time because of data reliability concerns.

BIS estimated it would receive several thousand additional license determination requests as a
result of ECR, an amount significantly greater than its FY 2013 workload of more than 1,400
determinations. In an attempt to better handle the anticipated increase and avoid export delays,
BIS staff provided training about the items moving from the USML to the CCL to 189
Department of Homeland Security officers who are responsible for export enforcement at 62
ports of entry. They also provided these officers with contact information for BIS specialists
who could answer general questions about specific commodities and stationed an MCD
licensing officer with the Department of Homeland Security’s EXODUS Command Center to
provide in-person guidance on ECR. BIS funded and worked with Homeland Security to
develop a training video to provide to Department of Homeland Security officers who did not
receive in-person training or to be available for future refresher training.

Since BIS estimates that requests for license determinations will more than double as a result of
ECR, data and tracking weaknesses pose a risk for future performance. BIS requires its licensing
officers to complete license determinations within 35 days, but has an informal target of 20 days
for Department of Homeland Security referrals that involve detained shipments. By improving
the way it tracks license determinations, BIS can identify and address delays and performance
problems. At the time of our audit, BIS informed us that it planned to automate this process.

C. Delays in Migrating to USXPORTS, Now into Its Third Year, May Cost BIS $1.3 Million per Quarter
in FY 2015 to Continue Operating Its Current Antiquated Licensing System

Before ECR, agencies with licensing responsibilities—primarily BIS and the Departments of
State and Defense—operated their own IT systems through which license applications and
interagency referrals are processed. BIS uses an antiquated legacy system developed in 1984,

12
  The average processing time for BIS license determinations could have been impacted because BIS licensing
officers were furloughed and unable to process license determinations during the federal government shutdown of
October 1–16, 2013.


FINAL REPORT NO. OIG-14-028-A                                                                                 9
     U.S. DEPARTMENT OF COMMERCE                                                 OFFICE OF INSPECTOR GENERAL


known as the Export Control Automated Support System (ECASS). ECR calls for these
agencies to process license applications and referrals on a single IT platform. The chosen
platform, known as USXPORTS, is currently operated by the Department of Defense. BIS has
been working with its Defense counterpart to migrate its license processing and referral
functions to that system. However because USXPORTS will only incorporate license processing
and referrals, BIS has developed a separate new system, called the Commerce USXPORTS
Export Support System (CUESS), to support other important export enforcement and technical
licensing determination functions that historically resided on ECASS and to serve as a backup
licensing system should USXPORTS fail.13

BIS originally planned on migrating to USXPORTS by May 2012, but repeated delays pushed
back the migration date several times, most recently to June 16, 2014. In early June, the agency
informed us that it would not meet this date, since end-to-end testing had not yet begun. Since
that time, end-to-end testing was carried out and finished on August 8, 2014, uncovering
several development and programming issues. The bureau will provide this information to
Defense for it to resolve. Until that happens, BIS cannot provide a new date for its migration to
USXPORTS. Separately, the bureau also informed us that development, testing, and
implementation of CUESS finished ahead of its June 15, 2014, deadline with one exception: The
capability to process licenses could not be implemented until USXPORTS end-to-end testing
was completed (which has since happened) and any issues were resolved. In the meantime,
CUESS is being used to handle other functions, such as license determinations and commodity
classification determinations.

Departmental IT information showed that 26 of 56 project milestones for the migration to
USXPORTS that had planned completion dates before January 14, 2014, were incomplete.
Additionally, more than $3 million had been spent on now-suspended project milestones.14
Given past schedule slippages and the current compressed completion schedule, full
implementation of the CUESS project is uncertain as well. A June 2013 memo from the
Department’s Chief Information Officer to BIS stated, “The Department is very concerned by
the current issues and status [with the migration].” Until CUESS and USXPORTS are fully
operational, BIS will continue incurring costs to operate and maintain ECASS, which for FY
2014 are estimated at almost $5.3 million.15 Funding for CUESS and USXPORTS since October
2012 has totaled $17.9 million. Once both systems are brought successfully online, BIS
anticipates spending $1.2 million annually to operate CUESS and between $1.2 million and $2
million annually to use USXPORTS. If delays in migrating to USXPORTS continue into FY 2015
as a result of problems uncovered by end-to-end testing that need resolving, BIS informed us
that it would not spend additional funds on USXPORTS—but would continue operating ECASS
at a cost of $1.3 million per quarter.

We did not assess the reasons for the schedule slippage. BIS contends that the federal budget
sequestration in 2013 and performance issues with the Defense Department’s contractor
13
   For this audit, we did not assess the efficiency of developing and maintaining two systems (USXPORTS and

CUESS) for export licensing or the degree to which the two systems are duplicative.

14
   Determining the appropriateness of these expenditures was outside of our audit scope.

15
   BIS will incur $118,000 in software maintenance fees per quarter to continue operating ECASS beyond June 30, 

2014. If USXPORTS and CUESS are not available by December 31, 2014, BIS will have to pay nearly $1.2 million

per quarter for ECASS mainframe maintenance (including contractor labor).



10                                                                                  FINAL REPORT NO. OIG-14-028-A
U.S. DEPARTMENT OF COMMERCE                                                        OFFICE OF INSPECTOR GENERAL


prevented migration to USXPORTS before the initial transfer of USML items on October 15,
2013. These issues may have been exacerbated by BIS’ failure to complete risk registers for
either IT project.16 In our March 19, 2014, memorandum to the Under Secretary for Industry
and Security and the Department’s Chief Information Officer, written in response to an OIG
hotline complaint about the migration to USXPORTS, we expressed concerns about BIS’
inadequate performance in executing this project and its level of compliance with the Office of
Management and Budget’s directive to modernize its IT system.17 On April 1, 2014, BIS
provided us with a response detailing the specific actions it has taken in the last year to address
the issues related to the two IT systems.

With the agency having missed the June 16, 2014, date to begin using USXPORTS to process
export license applications, future schedule and cost implications are not clear. Given past
schedule slippages, the migration to USXPORTS requires continued attention until its
completion to avoid the costs that will be incurred because of the inability to fully implement
USXPORTS and CUESS by December 31, 2014, and the continued need for and use of ECASS.

II. BIS’ Plans for Increasing Enforcement Capabilities and Resources Are
Reasonable, but End-Use Check Training for U.S. and Foreign Commercial Service
Officers Could Be Enhanced

In the area of export enforcement, we found that BIS’ plans in FY 2014 for increasing its
enforcement capabilities and resources are reasonable and in line with increased performance
goals. Export Enforcement aims to increase the number of enforcement actions by nearly 30
percent (to 1,100) and the number of end-use checks by more than 20 percent (to 1,030) by
adding 22 FTEs at a cost of $2.2 million to its
Information Triage Unit, Export Enforcement                  Figure 5. End-use Checks
Coordination Center, Export Control Officer
program, and OEE. However, we found that training         Pre-license checks are conducted
of commercial officers of the U.S. and Foreign            while an export license application is
Commercial Service on how to conduct end-use              being processed to obtain information
checks could be enhanced.                                 about the foreign end user(s) and to
                                                                        help validate information on an
BIS conducts end-use checks to determine the                            application.
suitability of foreign end users and verify the                         Post-shipment verifications are
legitimacy of export transactions. There are two                        conducted after an item has been
types of end-use checks: pre-license checks and post-                   shipped to determine whether the
shipment verifications (see figure 5). They are                         licensed item was received by the end
performed by BIS export control officers and OEE                        user and is being used in accordance
special agents, or by commercial officers from the                      with the license provisions.
International Trade Administration’s (ITA) U.S. and

16
   A risk register is a document in which the results of risk analysis and risk response planning are recorded. Project
Management Institute, PMI Lexicon of Project Management Terms, [online], www.pmi.org/PMBOK-Guide-and-
Standards/PMI-lexicon.aspx (accessed May 12, 2014).
17
   Memorandum, “BIS Migration to USXPORTS,” March 19, 2014, U.S. Department of Commerce Office of
Inspector General to Under Secretary for Industry and Security.


FINAL REPORT NO. OIG-14-028-A                                                                                        11
     U.S. DEPARTMENT OF COMMERCE                                                  OFFICE OF INSPECTOR GENERAL


Foreign Commercial Service (USFCS) on behalf of BIS.18 Between FY 2010 and FY 2013, BIS
conducted 3,626 end-use checks, of which 417 (11.5 percent) were performed by commercial
officers stationed overseas.19 For FY 2014, BIS plans on completing 850 end-use checks.

In our review of the end-use check program, we found that commercial officers could benefit
from additional end-use check training. BIS provides training designed for new commercial
officers on conducting end-use checks as part of their initial training. However, it may be years
before a commercial officer conducts an end-use check, risking the possibility that the initial
training may be outdated or not retained by the commercial officer. Since the content of the
commercial officers’ initial training is not available on the Commerce Learning Center nor on
ITA’s intranet, officers have to instead consult a manual that is posted on ITA’s intranet to
assist them in conducting end-use checks. Senior USFCS management stated that they need BIS’
assistance to help define the agency’s training needs involving end-use checks, because current
BIS training is insufficient. Providing more robust, up-to-date online training materials for
commercial officers to review would assist them in performing these important and time-
sensitive enforcement activities.

Recommendations

We recommend the Under Secretary for Industry and Security take the following actions:

      1.	 Verify the appropriateness of staffing levels after the transfer of all USML items to the
          CCL is complete.

      2.	 Improve the tracking of license determinations to ensure they are processed within
          established timeframes.

      3.	 Develop a contingency plan for completing the migration to USXPORTS that includes
          any additional incurred costs and how BIS will absorb those costs.

      4.	 Enhance end-use check training for USFCS officers.




18
   BIS export control officers are stationed in Beijing, Dubai, Hong Kong, Moscow, New Delhi, and Singapore, and
conduct end-use checks in their areas of responsibility. Through OEE’s Sentinel Program, pairs of OEE special
agents travel to regions of the world to conduct end-use checks selected under a set of criteria. Since 1988, BIS
and the International Trade Administration have maintained an agreement (renewed in 2010 for another 5 years)
stipulating that USFCS commercial officers may perform end-use checks on behalf of BIS.
19
   According to the USFCS, as of September 30, 2013, 191 commercial officers were stationed overseas. They
would be available to conduct end-use checks.


12                                                                                   FINAL REPORT NO. OIG-14-028-A
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL



Summary of Agency Response and OIG
Comments
In response to our draft report, the Under Secretary for Industry and Security agreed with all
of our recommendations and provided additional comments with respect to our findings.
Regarding finding 1, BIS stated that it relied on the State Department for information and
analysis on its future munitions workload and believes its forecasted staffing levels based on that
analysis were accurate. Since the initial transfer of USML items in October 2013, BIS states that
it monitors the average munitions license processing times (currently at 15 days) on a daily
basis and will adjust staffing as needed as its workload increases. With respect to finding 2, BIS
has automated the process for receiving and delivering license determinations to external
enforcement agencies and believes this new process addresses our concerns.

In response to finding 3, BIS stated that it will not spend further budgetary resources on the
development of USXPORTS until end-to-end testing is completed and any issues identified are
resolved. Until USXPORTS is fully developed and meets all of BIS’ requirements, BIS will only
spend funds on operating and maintaining ECASS. Finally, with respect to finding 4, BIS stated
that it will work with the USFCS to enhance end-use check training for commercial officers.

Prior to delivering its formal response, BIS submitted technical comments to the draft report.
We made changes to the final report based on these comments and suggestions. BIS’ formal
response is presented in appendix E of this report.

We look forward to receiving BIS’ action plan within 60 days of the date of this report.




FINAL REPORT NO. OIG-14-028-A                                                                    13
     U.S. DEPARTMENT OF COMMERCE                                      OFFICE OF INSPECTOR GENERAL



Appendix A: Objectives, Scope, and
Methodology
The objectives of this audit were to (1) review the adequacy of BIS program plans and budget
requests to address the increased workloads for licensing, outreach, and enforcement activities
in FY 2014 through FY 2016 and (2) evaluate existing BIS licensing, outreach, and enforcement
activities and identify any areas for increased efficiencies.

We focused our analysis on areas of BIS most affected by ECR—namely its licensing divisions,
outreach office, and enforcement offices (excluding antiboycott compliance)—and performed
the following activities to accomplish our objectives:

        Interviewed BIS managers to understand their plans for handling the increased licensing,
         outreach, and enforcement workloads due to ECR.
       Validated BIS’ workload analyses for the increased licensing, outreach, and enforcement
         activities and assessed the adequacy of its FY 2014 budget request.
       Assessed whether BIS’ performance targets adequately reflect its increased workloads
         and are consistent with accomplishing its mission.
       Obtained workload data from the State Department for processing license applications
         and enforcement activities on the items transferred from the USML to the CCL.
       Reviewed current BIS performance measures for licensing, outreach, and enforcement
         activities.
       Evaluated BIS activities with interagency partners to assess coordination and level of
         resources used.
       Interviewed BIS administrative and finance staff and Departmental officials to understand
         certain financial internal controls.
      	 Reviewed relevant laws and regulations for munitions and dual-use items to gain an
         understanding of export controls and the reform effort, including the Export
         Administration Act of 1979, the Arms Export Control Act of 1976, the Export
         Administration Regulations, the International Traffic in Arms Regulations, and Executive
         Orders 12981, 13026, and 13558, which address the administration and enforcement of
         export controls.

Further, we obtained an understanding of internal controls significant to our objectives, namely
the processing of license applications for both items previously subject to the EAR and those
items transitioning from the USML to the CCL, the collection of funds for BIS’ Seminar Trust
Fund, the payment of administrative penalties, and exporter use of the STA license exception
through the Automated Export System. No instances of fraud, illegal acts, or abuse came to our
attention during our audit.

To satisfy our audit objectives, we reviewed documentation provided by BIS, the Department,
and other federal government agencies. We did not rely on computer-processed data and
therefore did not carry out any data reliability testing.



14                                                                       FINAL REPORT NO. OIG-14-028-A
U.S. DEPARTMENT OF COMMERCE                                      OFFICE OF INSPECTOR GENERAL


We conducted this audit from May 2013 through June 2014 and performed fieldwork in
Washington, DC. The audit was conducted under the authority of the Inspector General Act of
1978, as amended, and Department Organization Order 10-13, dated April 26, 2013. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions, based on
our audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.




FINAL REPORT NO. OIG-14-028-A                                                               15
     U.S. DEPARTMENT OF COMMERCE           OFFICE OF INSPECTOR GENERAL



Appendix B: ECR Outreach Events in Relation 

to USML Exporters, FY 2013





Source: BIS and Department of State data




16                                           FINAL REPORT NO. OIG-14-028-A
U.S. DEPARTMENT OF COMMERCE                                                   OFFICE OF INSPECTOR GENERAL



Appendix C: BIS Licensing and Enforcement
Resources for Satellite Items
Section 1248 of the National Defense Authorization Act for FY 201020 required the State and
Defense Departments to conduct an assessment of the national security risks of removing
satellites and related items from the USML. In March 2012, both Departments jointly issued a
report recommending that the following items could be moved from the USML to the CCL
without harming national security, provided the items on the CCL had adequate protections:
(1) communications satellites that did not contain classified components, (2) remote sensing
satellites with performance parameters under certain thresholds, and (3) associated parts and
components for these satellites.21 In early 2013, Congress removed the legislative barrier
preventing export controls for commercial satellites from moving from the USML to the CCL
as part the National Defense Authorization Act of FY 2013.22

BIS formulated a proposed rule containing four new Export Control Classification Numbers
(ECCNs) to incorporate commercial satellites into the CCL.23 The proposed rule was published
on May 24, 2013, with a 45-day public comment period that ended on July 8, 2013.24 An interim
final rule was published on May 13, 2014, with an effective date of November 10, 2014, for
most satellite items.25 Allowing for a 180-day implementation period to allow exporters time to
prepare for this change, the first dual-use satellite license applications for most satellite items
will not be received and processed by BIS until mid-November 2014.

BIS anticipates that it will receive approximately 1,500 new license applications annually for
satellite items. These applications will be processed by two licensing staff members—one
licensing officer and one analyst—within the Office of National Security and Technology
Transfer Controls. On the enforcement side, BIS formulated an end-use monitoring targeting
plan for FY 2014. This plan incorporated the new munitions and satellite items scheduled to
come under BIS jurisdiction. These items will be subject to both types of end-use checks, based
on agency priorities and stringent criteria. As with other exports subject to the EAR, BIS will
rely on export control officers, commercial officers, and OEE special agents to conduct checks
as needed.

20
   Pub. L. No. 111-84, § 1248, 123 Stat. 2190, 2546-47 (2009).

21
   U.S. Department of Defense and U.S. Department of State, “Report to Congress: Section 1248 of the National 

Defense Authorization Act for Fiscal Year 2010,” March 15, 2012 [online]. www.defense.gov/home/features/

2011/0111_nsss/docs/1248_Report_Space_Export_Control.pdf (accessed March 26, 2014).

22
   Pub. L. No. 112-239, § 1261, 126 Stat. 1632, 2018-19 (2013).

23
   The four new ECCNs (9A515, 9B515, 9D515, and 9E515) fall under the CCL’s Category 9, “Aerospace and

Propulsion.”
	
24
   Export Administration Regulations (EAR): Control of Spacecraft Systems and Related Items the President

Determines No Longer Warrant Control Under the United States Munitions List (USML), 78 Fed. Reg. 31431(May

24, 2013).

25
   Revisions to Export Administration Regulations (EAR): Control of Spacecraft Systems and Related Items the 

President Determines No Longer Warrant Control Under the United States Munitions List (USML), 79 Fed. Reg. 

27417 (May 13, 2014). Export control changes for radiation-hardened microelectronic microcircuits are effective 

June 27, 2014.



FINAL REPORT NO. OIG-14-028-A                                                                                  17
     U.S. DEPARTMENT OF COMMERCE                          OFFICE OF INSPECTOR GENERAL



Appendix D: List of Acronyms

BIS	            Bureau of Industry and Security

CCL             Commerce Control List

CUESS	          Commerce USXPORTS Export Support System

CY	             calendar year

EAR	            Export Administration Regulations

ECASS	          Export Control Automated Support System

ECR	            Export Control Reform

FY	             fiscal year

IT	             information technology

ITA	            International Trade Administration

MCD	            Munitions Control Division

OEA	            Office of Enforcement Analysis (BIS)

OEE	            Office of Export Enforcement (BIS)

OExS	           Office of Exporter Services (BIS)

STA	            Strategic Trade Authorization

USFCS	          U.S. and Foreign Commercial Service

USML	           United States Munitions List




18                                                          FINAL REPORT NO. OIG-14-028-A
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL



Appendix E: Agency Response





FINAL REPORT NO. OIG-14-028-A                           19
     U.S. DEPARTMENT OF COMMERCE   OFFICE OF INSPECTOR GENERAL




20                                   FINAL REPORT NO. OIG-14-028-A
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL




FINAL REPORT NO. OIG-14-028-A                           21
     U.S. DEPARTMENT OF COMMERCE                                                         OFFICE OF INSPECTOR GENERAL




           of Defense has notified us that all development work has been completed, and accordingly, we
           initiated the process of conducting end-to-end testing with Defense. End-to-end testing is
           scheduled for completion by August 8, 2014. At that time, BIS will work with the Department
           of Defense, who is the owner of the USXPORTS licensing system, to fix issues that were
           uncovered during the testing period, so that BIS can transfer the BIS licensing process over to
           the USXPORTS licensing system.

           BIS acknowledges that if delays in migrating to USXPORTS continue into FY 2015, BIS will
           need to continue to fund the continued operation of the current licensing system, ECASS, which
           continues to be our contingency plan. However, it is important to note that while USXPORTS is
           undergoing end-to-end testing and final development fixes, BIS will not be spending any funds
           on USXPORTS. Costs to continue the use ofECASS are those that are associated with
           operating and maintaining our current ECASS licensing system. In other words, to continue to
           process export licenses in a timely fashion, BIS will continue to spend funds on maintenance,
           repair and operating (MRO) costs for the current ECASS system with no funds being further
           spent on USXPORTS. When USXPORTS is fully developed with the required BIS business
           practices, BIS will cease spending funds on ECASS MRO costs and start paying those funds to
           USXPORTS for MRO work. Based on preliminary estimates from the Department of Defense,
           BIS expects the MRO costs for USXPORTS will be similar to the costs for ECASS.

           Recommendation 4: Enhance end-use check training for USFCS officers.

           Response:

           BIS believes that outreach and training is crucial to an export control system that successfully
           protects U.S. national security, proliferation, and foreign policy concerns. This includes
           outreach for other government agencies, including the U.S. and Foreign Commercial Service
           (USFCS). Under ECR, the transfer of items from the USML to the CCL will result in enhanced
           enforcement focus as existing enforcement resources of the U.S. Government for munitions
           items will be augmented by the addition of dedicated law enforcement resources of EE, whose
           sole focus is enforcement of export controls. USFCS officers play an important role by
           conducting some end-use checks on behalf of EE.

           BIS concurs with OIG's recommendation to enhance training for USFCS officers and will work
           with the International Trade Administration (ITA) on this effort. Since March 2013, BIS has
           participated in the Foreign Service Institute's Commercial Tradecraft Course for new USFCS
           officers five times and has provided specific training on ECR and regulations covering the
           munitions items that have been moved to the CCL. BIS will encourage ITA to make current BIS
           outreach materials available to USFCS officers on the ITA intranet. In addition, as we informed
           OIG, we will encourage ITA to once again include conduct of end-use checks in USFCS
           officers' performance plans.




22                                            011200000169                                  FINAL REPORT NO. OIG-14-028-A
